         OFFICE OF

    INSPECTOR GENERAL



     Semiannual Report to Congress

     October 1, 2000 - March 31, 2001



        Federal Election Commission

             999 E Street, N.W.

                  Suite 940

          Washington, D.C. 20463


                202-694-1015

          Toll-Free: 1-800-424-9530


         e-mail address: oig@fec.gov

website address: http://www.fec.gov/fecig.htm



                 May 2001

                                   TABLE OF CONTENTS

SUBJECT                                                                                     PAGE




EXECUTIVE SUMMARY.........................................................                     1


FEDERAL ELECTION COMMISSION....................................                                7


AUDITS...................................................................................      10


AUDIT FOLLOW-UP..............................................................                  12


INSPECTIONS.......................................................................             15


INVESTIGATIONS..................................................................               19


ADDITIONAL OFFICE OF INSPECTOR GENERAL

   ACTIVITY.........................................................................           20


ECIE AND PCIE ACTIVITY.....................................................                    26


REPORTING REQUIREMENTS..............................................                           28


TABLE I - QUESTIONED COSTS...........................................                          29


TABLE II - FUNDS PUT TO BETTER USE.............................                                30


TABLE III - SUMMARY OF AUDIT REPORTS WITH

            CORRECTIVE ACTIONS OUTSTANDING

            FOR MORE THAN SIX MONTHS.......................                                    31


FEC/OIG STRATEGIC PLAN...................................................                      32


CONTACTING THE OFFICE OF INSPECTOR

   GENERAL..........................................................................           33





October 1, 2000 - March 31, 2001
                               EXECUTIVE SUMMARY


        This report is submitted pursuant to the Inspector General Act of 1978,

as amended. This Executive Summary provides a brief synopsis of

accomplishments and general activities pertaining to the Office of Inspector

General (OIG) for the period October 1, 2000 through March 31, 2001.



        During this semiannual reporting period, the Office of Inspector

General continued to work on the audit entitled, Procurement Operations

(OIG-00-03). The primary objectives of this audit are to 1) determine

whether or not the FEC has an efficient and effective procurement system in

place; and 2) determine whether the FEC’s procurement process complies

with statutory and regulatory requirements. The audit is being conducted to

see if the Commission has implemented the key acquisition reforms contained

in the Federal Acquisition Streamlining Act (FASA) of 1994.



        In order to achieve the audit objectives, steps taken to complete the

audit have included reviewing records and selecting the audit sample.

Additional information regarding this audit is located on page 10, the Audit

section of this report.



        The Office of Inspector General released one follow-up report during

this reporting period. The original audit report entitled, Review of



October 1, 2000 - March 31, 2001                                           Page 1
Commission’s Employee Appraisal Process (OIG-97-02), was released

January, 1998. The primary objectives of the audit were to 1) determine

whether the Commission’s Employee Appraisal Process was in compliance

with applicable Federal regulations and Commission Personnel instructions;

and 2) determine whether the Commission’s monetary incentive process was

in compliance with applicable Federal regulations and Commission Personnel

instructions. The original report contained four audit recommendations.

Three recommendations have been closed during previous reporting periods.



        After completion of the follow-up work, the OIG determined that the

Personnel Office has taken sufficient steps to address the weaknesses

identified in our audit report. All four recommendations have been addressed

by management and are now closed. The Audit Follow-up section, located

on page 12, contains further information regarding this report.



        During this reporting period, the OIG began work on three

inspections. The first one entitled, Inspection of the Commission’s Web

Site Privacy Practices (OIG-01-02), was in response to a statutory

requirement with regards to Section 646 of the Treasury and General

Government Appropriations Act 2001, which requires each Federal Inspector

General to report to Congress on Agency practices/policies with respect to

personally identifiable information collected via the agencies’ Web site.




October 1, 2000 - March 31, 2001                                            Page 2
        Actions taken to assist in completing the inspection include meeting

with FEC management and conducting tests to determine whether the FEC’s

Web site uses Internet cookies or Web bugs. Significant information

pertaining to this inspection is located on page 15, the Inspections section of

this report.



        The second inspection entitled, Inspection of the Commission’s

Compliance with the Federal Managers Financial Integrity Act

(FMFIA) of 1982 (OIG-01-03), is being conducted to determine whether or

not the FEC is in compliance with the FMFIA Act of 1982.



        An inspection guide was developed using information obtained during

the research phase of the inspection. Meetings were conducted with the

FMFIA program manager, who is responsible for preparing the annual

assurance statement to the President. Information received from

management has been reviewed and analyzed. Further details regarding this

inspection can be found on page 16, the section entitled Inspections.



                 The OIG is also conducting an inspection of the FEC’s Westlaw

Service entitled Inspection of the Commission’s Westlaw Database

Service (OIG-01-05). The Westlaw service provides commission staff with

on-line research information and is administered by the FEC library.




October 1, 2000 - March 31, 2001                                           Page 3
Located on page 18, the Inspections section of this report, is more

information relating to this topic.



        Listed below are highlights of additional activities conducted by the

Office of Inspector General during this reporting period. Items are described

in greater detail, starting on page 20, the section entitled Additional Office

of Inspector General Activity.



        • 	 Congress enacted the Omnibus Consolidated Appropriation Act on

             December 21, 2000. There was a requirement included in the Act

             that stated each Federal Inspector General provide quarterly

             reports to the Committees on Appropriations analyzing the

             promptness of payment for water and sanitary sewer services

             received by Federal agencies from the District of Columbia Water

             and Sewer Authority (WASA). After further research, we

             concluded that the reporting requirement does not apply to our

             office. The Senate and House Appropriations Committees were

             notified of our findings.



        • 	 The OIG responded to a request from the Chairman of the

             Committee on Government Reform regarding recovery auditing.

             The Chairman requested that each Office of Inspector General

             provide significant examples of instances where their agency has


October 1, 2000 - March 31, 2001                                              Page 4
             overpaid or not been credited properly on a contract for goods and

             services.



             Our response indicated that the OIG did not have any significant

             instances where the FEC has overpaid or has not been credited

             properly on a contract for goods or services within the past three to

             five years.



        • 	 The OIG also responded to an issue raised by the FEC’s Personnel

             Director, with respect to Federal law, regulations, and other

             guidance applicable to the safeguarding of Commission property,

             specifically laptop computers.



        • 	 The Data Systems Development Division (DSDD), asked the OIG

             to attend and provide comments on a training program being

             developed by DSDD on information systems security. The training

             will eventually be presented to all Commission staff.



        • 	 Also during this reporting period, the OIG provided comments on

             the President’s Council on Integrity and Efficiency/Executive

             Council on Integrity and Efficiency’s (PCIE/ECIE) Strategic Plan.

             Suggestions provided by the OIG focused on projects that may be

             beneficial for the OIG community to undertake. These suggestions


October 1, 2000 - March 31, 2001                                             Page 5
             were forwarded to the PCIE/ECIE Strategic Plan Committee for

             their consideration.



        • 	 Given the amount of publicity aimed at the Florida election, during

             this reporting period, the OIG received over 400 inquiries regarding

             the Presidential voting procedures in Florida.



             A staff member responded to the inquiries with a brief reply that

             stated their correspondence had been forwarded to the FEC’s Office

             of Election Administration.



        • 	 The Special Assistant to the Inspector General is assigned to

             conduct quarterly cash counts of the Agency’s imprest fund. Three

             cash counts were performed during this reporting period (OIG-00-

             07, OIG-01-01 and OIG-01-04).




October 1, 2000 - March 31, 2001                                            Page 6
                    THE FEDERAL ELECTION COMMISSION


                 The Federal Election Commission (FEC) is an independent,

regulatory agency responsible for administering and implementing the

Federal Election Campaign Act (FECA). The FEC is composed of six

Commissioners who are appointed for six year terms by the President of the

United States, with the advice and consent of the Senate. The FECA

likewise established the positions of Staff Director and General Counsel, who

are appointed by the Commissioners.



        During this reporting period, the Commission elected Danny L.

McDonald to be its Chairman and David M. Mason to be its Vice Chairman.

Currently, the FEC has a full compliment of Commissioners.



                     OFFICE OF INSPECTOR GENERAL


        The Federal Election Commission is one of the thirty-three designated

agencies required to have an Inspector General under the 1988 amendments

to the Inspector General Act of 1978 (P.L. 100-504).



        The responsibilities of the Inspector General as stated in P.L. 100-504

are as follows:



October 1, 2000 - March 31, 2001                                            Page 7
                 • 	 conduct and supervise audits and investigations relating to

                      the Federal Election Commission’s programs and operations;



                 • 	 provide leadership, coordination, and to recommend policies

                      for activities designed to promote economy, efficiency and

                      effectiveness in the administration of Commission programs

                      and operations. To prevent and detect fraud, waste and

                      abuse in these programs and operations, and;



                 • 	 keep the Commissioners and Congress fully and currently

                      informed about problems and deficiencies and the need for

                      and progress of corrective actions.



        The OIG is under the supervision of the Inspector General who

provides overall direction to the staff. One of the two OIG auditors resigned

in November, 2000 which left the OIG at 50% of its auditing capability for

half of the reporting period. A new auditor was hired in February, 2001

bringing the OIG to its full compliment of four full time employees. The staff

consists of the Inspector General, the Special Assistant to the Inspector

General and two Senior Auditors.



        In FY’01, the Inspector General requested an additional auditor

position. At the request of the FEC’s Finance Committee, the Inspector



October 1, 2000 - March 31, 2001                                               Page 8
General researched the feasibility of using contracting services instead of

receiving an additional staff position. A conclusion was reached that the use

of contracting funds was a reasonable alternative to the additional position.

$65,000 in contracting funds was requested for FY’01. When the FY’01

management plan was developed a request for $65,000 was again made, with

the understanding that the minimum amount needed for contracting was

$30,000. No contracting funds were able to be provided to the OIG for FY’01.

For the FY’02 Budget, the IG requested an upgrade of one auditor position

and $65,000 in contract funds.




October 1, 2000 - March 31, 2001                                          Page 9
                                              AUDITS


TITLE:                             Procurement Operations


ASSIGNMENT #:                      OIG-00-03


RELEASE DATE:                      In Progress


PURPOSE:                           The primary objectives of this audit are to 1)


determine whether or not the FEC has an efficient and effective procurement


system in place; and 2) determine whether the FEC’s procurement process


complies with statutory and regulatory requirements.




        The audit is being performed to determine if the Commission has

implemented the key acquisition reforms contained in the Federal

Acquisition Streamlining Act (FASA) of 1994. The audit will include

soliciting feedback from Commission divisions on the positive and negative

aspects of the Commission’s process to purchase goods and services. The OIG

is also interested in knowing if the goods and services are delivered in a

timely manner; would written guidelines on how to order goods and services

be helpful; and is there a need for additional staff training to address the

procedures for acquiring goods and services.




October 1, 2000 - March 31, 2001                                                     Page 10
Audits (continued)



        Steps taken to complete the audit have included conducting interviews,

reviewing records, and selecting the audit sample. Review of the audit

sample has started and is continuing.




October 1, 2000 - March 31, 2001                                         Page 11

                                   AUDIT FOLLOW-UP


TITLE:                             Review of Commission’s Employee Appraisal
                                   Process

ASSIGNMENT #:                      OIG-97-02

RELEASE DATE:                      January, 1998
(audit report)

PURPOSE:                           During this reporting period, the OIG continued to

follow-up on the status of this report. Follow-up work conducted during

previous reporting periods revealed that the Personnel Office had resolved

three of the four recommendations contained in the original audit report -

OIG-97-02, Review of the Commission’s Employee Appraisal Process, released

January, 1998. We continued to monitor the progress of the Personnel

Office’s actions to address the one outstanding audit finding and

recommendation.



        The primary objectives of the audit were to determine whether or not

the Commission’s employee appraisal process and the monetary incentive

process were in compliance with applicable Federal regulations and

Commission Personnel Instructions.



        The remaining outstanding recommendation recommended the

Personnel Office take measures to ensure that all performance standards


October 1, 2000 - March 31, 2001                                                Page 12
Audit Follow-up (continued)



used to evaluate employees are written in accordance with employee

performance management requirements contained in Title 5 of the Code of

Federal Regulations (CFR). In addition, the OIG recommended the Personnel

Office develop a system to review all new performance standards prepared by

supervisors to ensure standards are written in compliance with regulation

and Commission policy.



        A Personnel Office Standard Operating Procedures on Performance

Standards Management has been issued to document the Personnel Office’s

procedures for ensuring that the performance standards are in compliance

with Commission policy and Title 5 of the CFR. The Personnel Office has

agreed to a process that will include reviewing performance standards on file

upon receipt of employee appraisals. In addition, the appraisal and

performance plan will be compared to ensure employees are properly

evaluated based on the expectations contained in the performance plan on file

in the Personnel Office.



        The OIG concluded that the Personnel Office has taken sufficient steps

to address the weaknesses identified in our 1998 audit report. Therefore, the

OIG closed the outstanding recommendation and all four audit




October 1, 2000 - March 31, 2001                                        Page 13
Audit Follow-up (continued)



recommendations contained in the January, 1998 audit report have been

addressed by management and are now closed.




October 1, 2000 - March 31, 2001                                    Page 14

                                      INSPECTIONS


TITLE:                             Inspection of the Commission’s Web Site
                                   Privacy Practices


ASSIGNMENT #:                      OIG-01-02

RELEASE DATE:                      In Progress

PURPOSE:                           This inspection is being conducted due to a

statutory requirement with regards to Section 646 of the Treasury and

General Government Appropriations Act, 2001. The Act requires each

Federal Inspector General to report to Congress on Agency practices/policies

with respect to personal and identifiable information collected via the

agencies’ Web site.



        Tests were conducted to determine whether the FEC’s Web site uses

Internet cookies or Web bugs. Internet cookies and Web bugs are methods

used by some Web sites to track and/or record personal information about

Web users. Meetings were held with FEC management, criteria applicable to

the inspection was reviewed and external parties were contacted.



        The OIG sent letters to the Subcommittees on Treasury, Postal

Service and General Government, stating that the FEC OIG is actively

working on the issue.



October 1, 2000 - March 31, 2001                                                 Page 15
Inspections (continued)



TITLE:                             Inspection of the Commission’s Compliance
                                   with the Federal Managers’ Financial
                                   Integrity Act (FMFIA) of 1982


ASSIGNMENT #:                      OIG-01-03

RELEASE DATE:                      In Progress

PURPOSE:                           The inspection is being conducted to ensure that

the Commission is meeting the requirements of the Federal Managers’

Financial Integrity Act of 1982. The Act requires all federal agencies to

establish internal accounting and administrative controls in accordance with

standards prescribed by the Comptroller General. In addition, Agency heads

are required to submit an annual statement of assurance to the President on

the adequacy of internal controls and actions taken to correct any identified

weaknesses.



        The primary objectives of the inspection are to 1) evaluate the

Commission’s compliance with the provisions of the FMFIA Act of 1982, GAO

Standards, OMB policies, and Commission directives; 2) determine whether

the Commission adequately implemented agency policies and procedures to

assess, as well as strengthen the internal control environment; 3) determine

whether the Commission’s Annual FMFIA report of 2000 to the President

accurately represented the adequacy of the review process



October 1, 2000 - March 31, 2001                                                 Page 16
Inspections (continued)



within the Commission; and 4) follow-up on issues addressed during the 1991

audit of the Commission FMFIA program.



        The work on this inspection is on-going, with an anticipated completion

date during the next reporting period.




October 1, 2000 - March 31, 2001                                         Page 17
Inspections (continued)



TITLE:                             Inspection of the Commission’s Westlaw
                                   Database Service


ASSIGNMENT #:                      OIG-01-05

RELEASE DATE:                      In Progress

PURPOSE:                           The Westlaw service provides Commission staff

with on-line research information and is administered by the FEC Library.

The inspection has included a review of a fiscal year 2001 duplicate payment

paid to the Westlaw vendor by the Commission in the amount of $10,908.

The OIG has interviewed staff from the Administrative, Accounting, and

Library divisions to determine the cause of the duplicate payment and the

likelihood of a re-occurrence. Accounting and administrative documents

related to the Westlaw account are also being reviewed. Additional work

performed on the inspection of the Westlaw service will be detailed in the

final inspection report to be released by the OIG.




October 1, 2000 - March 31, 2001                                              Page 18
                                   INVESTIGATIONS


        At the request of the U.S. Postal Inspection Service, the Office of

Inspector General assisted in an investigation of a FEC employee. The OIG

confirmed that the subject of their investigation was an employee and

provided requested information such as his location in the agency, work

hours, computer access, and other details.



        The OIG was also present when the special agents from the Postal

Inspection Service executed their search warrant for the employee’s work

station and the computer assigned to the employee.



        The OIG has also periodically contacted the special agent in charge to

ascertain the status of the case. The case is still open and the employee has

yet to be indicted.




October 1, 2000 - March 31, 2001                                              Page 19
      ADDITIONAL OFFICE OF INSPECTOR GENERAL ACTIVITY


        All legislation, as compiled by the Commission’s Congressional Affairs

Office, was reviewed by the Inspector General, as required by the Inspector

General Act of 1978, as amended. The Inspector General reviews and

comments, when appropriate, on all legislation provided by the PCIE

Legislative Committee. In addition, the Inspector General routinely reads all

Commission agenda items and attends Finance Committee meetings.



        On December 21, 2000, Congress enacted the Omnibus Consolidated

Appropriations Act. There was a requirement contained in the Act that

states each Federal Inspector General is to provide quarterly reports to the

Committees on Appropriations, analyzing the promptness of payment for

water and sanitary sewer services received by Federal agencies from the

District of Columbia Water and Sewer Authority (WASA).



        During the research conducted to comply with this requirement, the

OIG found that both locations occupied by FEC staff receive services from the

DC WASA, but the cost of these services is included in the monthly rent paid

by the FEC to the General Services Administration (GSA). The GSA is

responsible for the payment of rent to the property management/building

owner who in turn is responsible for the payment to the DC WASA for water

and sanitary services. Consequently, we concluded that the reporting

October 1, 2000 - March 31, 2001                                         Page 20
requirement does not apply to the agency since the FEC does not pay water

and sanitary services directly to the DC WASA. Both the Senate and House

Appropriations Committees were notified on January 11, 2001 on the results

of our review.



        We also responded to a request by the Chairman of the Committee on

Government Reform regarding recovery auditing. This request was sent to

all IGs. The Chairman requested examples of significant instances in which

government agencies have overpaid or not been credited properly on a

contract for goods or services within the past three to five years. The OIG

responded that the FEC OIG did not have any significant instances

uncovered by the OIG in the past five years where the FEC has overpaid or

has not been credited properly on a contract for goods or services.



        The OIG responded to a request for assistance from the FEC’s Director

of Personnel. The Director of Personnel raised an issue with the OIG in

regards to Federal law, regulations, and other guidance applicable to the

safeguarding of Commission property, specifically laptop computers. In order

to ensure the Commission’s computer assets and the computer data stored on

those assets are protected, management and staff must both play an active

role to safeguard computer equipment and data. Management’s primary

responsibilities include the establishment of adequate policies and procedures,

and provide the training necessary to educate computer users on their



October 1, 2000 - March 31, 2001                                          Page 21
responsibilities and the risks associated with the use of computer equipment.

The Director of Personnel was provided with several criteria that the OIG

felt would give him a better understanding of the duties Federal employees

have to protect government property.



        The Data Systems Development Division training staff invited the

OIG to attend a training program being developed by the DSDD on

information systems security. The training will eventually be presented to

all Commission staff. The OIG provided not only our verbal comments

during and after the presentation, but gave written comments to DSDD

training staff on improvements to the oral presentation and the written

guidelines to be provided to staff.



        The OIG provided comments on the President’s Council on Integrity

and Efficiency/Executive Council on Integrity and Efficiency’s (PCIE/ECIE)

Strategic Plan. Two suggestions were provided, which the OIG believes

would be beneficial for the OIG community to undertake.



        The first suggestion was to develop an Internet search capability to

enable the OIG community, the Congress, and the public to easily locate OIG

documents, including audit, inspection, and evaluation reports. There are

several groups which would benefit from the creation of an OIG search

capability. The OIG community would be one of the primary beneficiaries of



October 1, 2000 - March 31, 2001                                          Page 22
the technology. One benefit would be the ability to identify from other OIG’s

work potential government-wide problems dealing with a particular audit

subject.



        Another potential beneficiary of a search capability of OIG work is the

Congress. Members of Congress and their staffs would be able to quickly and

efficiently locate and obtain OIG work by subject matter or work performed

by a particular OIG.



        The public could also benefit from a search capability of OIG work. A

common complaint by the public was the inability to determine which

government department or agency is responsible for a particular program.

FirstGov.gov was created to solve this problem and enable citizens to search

by subject and quickly identify the department/agency responsible for that

program. An OIG search engine would provide a similar benefit to parties

interested in OIG work.



        The second suggestion involved distributing a periodic OIG community

newsletter summarizing activities of the OIG community. The newsletter

would provide a brief synopsis of events and/or activities of the OIG

community. The primary benefit of a newsletter is to ensure the OIG

community is informed of past and future events, projects and issues, and to




October 1, 2000 - March 31, 2001                                          Page 23
maximize participation in OIG events, such as training and working group

meetings.



        This reporting period, the OIG received numerous e-mails and

correspondence regarding the Presidential voting procedures in Florida. Our

office responded to the inquiries with a brief reply that stated their

correspondence had been forwarded to the FEC’s Office of Election

Administration Division.



        In addition to the 400 plus communications regarding the Florida

election, we also received complaints pertaining to other election matters

such as, immigrants voting in California, cigarettes being handed out to woo

voters to the polls, and the illegal disposal of ballots. These issues were

forwarded to the appropriate FEC offices.



        As an ongoing task, the Special Assistant to the Inspector General is

assigned to conduct quarterly cash counts of the Agency’s impest fund. Three

unannounced cash counts of the FEC’s imprest fund were performed this

reporting period (OIG-00-07, OIG-01-01, and OIG 01-04). The imprest fund

consist of three drawers totaling $2,500. The results of the cash counts

revealed that all cash was accounted for and cash disbursements from the

imprest were reasonable and consistent with FEC imprest fund policy.




October 1, 2000 - March 31, 2001                                              Page 24
        There have been several discussions pertaining to the abolishment of

the imprest fund since most transactions by the Commission are electronic,

however a final decision has not been made.




October 1, 2000 - March 31, 2001                                        Page 25

                             ECIE AND PCIE ACTIVITY


        The Executive Council on Integrity and Efficiency was established by

Executive Order on May 11, 1992. It consists of Designated Federal Entity

Inspectors General and representatives of the Office of Government Ethics,

the Office of Special Counsel, the Federal Bureau of Investigation and the

Office of Management and Budget.



        The Inspector General (or staff) attended the following training,

programs and/or conferences during this reporting period:



        •    ECIE - Monthly Meetings

        •    PCIE/ECIE - Joint Quarterly Meeting

        • 	 National Aeronautics and Space Administration - Webmasters
            Meeting

        • 	 Inspector General Auditor Training Institute - GPRA Strategic
            Plans, Performance Plans, and Performance Reports

        • 	 Institute of Internal Auditors - Internal Auditing: New Knight of
            the Board and CEO Roundtable

        • 	 U.S. Postal Service - Directors of Investigation Conference,
            Williamsburg, Virginia

        • 	 Inspectors General Meeting - Discussion by Virginia Thomas,
            Heritage Foundation, concerning the new administration and the
            role of IGs

        • 	 Institute of Internal Auditors - 21st Annual Conference:
            Maximizing the Power of Information, Technology and Human
            Capitol

October 1, 2000 - March 31, 2001                                            Page 26
        • 	 Association of Government Accountants - Auditor Independence and
            other “Yellow Book” issues

        • 	 U. S. Department of Agriculture - 30th Annual JFMIP Conference:
            New Horizons for Financial Management

        • 	 Federal Audit Executive Council - Government Information Security
            Reform Act Conference

        • 	 Department of Commerce - Semiannual Report Coordinators’
            (SARC) meeting

        • 	 Federal Election Commission - Ethical Conduct for Executive
            Branch Employees

        •    Federal Election Commission - Administrative Liaisons Meeting

        • 	 Federal Election Commission - FEC provided computer training
            classes

        • 	 Office of Government Ethics - “Brown Bag” session on preparing for
            an ethics program review

        • 	 OIG Liaisons Meeting - Discussion of IGnet Statistician Advisory
            Group - OIG wide meeting of statistician advisory group

        • 	 Certified Internal Auditors Review Class - Review course offered by
            the Inspector General Auditor Training Institute in cooperation
            with Institute of Internal Auditing




October 1, 2000 - March 31, 2001                                          Page 27
IG ACT                    REPORTING REQUIREMENTS                                         PAGE

Reporting requirements required by the Inspector General Act of 1978, as amended by
the Inspector General Act Amendments of 1988 are listed below:

Section 4(a)(2)           Review of Legislation-----------------------------------------------20

Section 5(a)(1)	          Significant Problems, Abuses, and
                          Deficiencies---------------------------------------------------------None

Section 5(a)(2)	          Recommendations with Respect to
                          Significant Problems, Abuses, and
                          Deficiencies---------------------------------------------------------None

Section 5(a)(3)	          Recommendations Included in Previous
                          Reports on Which Corrective Action Has
                          Not Been Completed-----------------------------------------------31

Section 5(a)(4)	          Matters Referred to Prosecutive
                          Authorities---------------------------------------------------------None

Section 5(a)(5)	          Summary of Instances Where Information
                          was Refused-------------------------------------------------------None

Section 5(a)(6)           List of Audit Reports-----------------------------------------------10

Section 5(a)(7)           Summary of Significant Reports-------------------------------10

Section 5(a)(8)           Questioned and Unsupported Costs---------------------------29

Section 5(a)(9)	          Recommendations that Funds be put
                          to Better Use---------------------------------------------------------30

Section 5(a)(10)	         Summary of Audit Reports issued before
                          the start of the Reporting Period for which
                          no Management Decision has been made----------------N/A

Section 5(a)(11)          Significant revised Management Decisions-------------N/A

Section 5(a)(12)	         Management Decisions with which the
                          Inspector General is in Disagreement-------------------None




October 1, 2000 - March 31, 2001                                                                      Page 28
                                          TABLE I

                       INSPECTOR GENERAL ISSUED REPORTS
                             WITH QUESTIONED COSTS


                                                    DOLLAR VALUE (in thousands)

                                                    QUESTIONED    UNSUPPORTED
                                         NUMBER        COSTS         COSTS




A. 	 For which no management               0             0              [0]
     decision has been made by
     commencement of the reporting
     period


B. Which were issued during the            0             0              [0]
   reporting period

        Sub-Totals (A&B)                   0             0              [0]


C. 	 For which a management                0             0              [0]
     decision was made during
     the reporting period

        (i) Dollar value of disallowed     0             0              [0]
            costs

        (ii) Dollar value of costs         0             0              [0]
             not disallowed


D. 	 For which no management               0             0              [0]
     decision has been made by the
     end of the reporting period


E. 	 Reports for which no management       0             0              [0]
     decision was made within
     six months of issuance




October 1, 2000 - March 31, 2001                                              Page 29
                                          TABLE II

             INSPECTOR GENERAL ISSUED REPORTS WITH
        RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE



                                              NUMBER   DOLLAR VALUE
                                                        (in thousands



A.	     For which no management                 0            0
        decision has been made by
        the commencement of the
        reporting period

B. 	    Which were issued during                0            0
        the reporting period

C.	     For which a management                  0            0
        decision was made during
        the reporting period

        (i) 	    dollar value of                0            0
                 recommendations
                 were agreed to by
                 management

                 based on proposed              0            0
                 management action

                 based on proposed              0            0
                 legislative action

        (ii) 	   dollar value of                0            0
                 recommendations
                 that were not agreed
                 to by management

D. 	    For which no management                 0            0
        decision has been made by
        the end of the reporting period

E. 	    Reports for which no                    0            0
        management decision
        was made within six months
        of issuance




October 1, 2000 - March 31, 2001                                    Page 30
                                             TABLE III

           SUMMARY OF AUDIT REPORTS WITH CORRECTIVE ACTIONS
                OUTSTANDING FOR MORE THAN SIX MONTHS




                                                         Recommendations
Audit              Report          Management
Report             Issue            Response
Number             Date               Date               Number   Closed   Open

97-02              01/98             01/98                 4        4        0


98-08              05/99             04/99                 9        3        6


00-01              09/00             06/00                 7        3        4





October 1, 2000 - March 31, 2001                                           Page 31

                                                                       FEC / OIG Strategic Plan
                                                           OIG Process: To develop and implement                            OIG Staff: To maintain a skilled and motivated
 OIG Products: To provide products and
                                                           processes, policies, and procedures to ensure                    work force in an environment that fosters
 services that promote positive change in
                                                           the most effective and appropriate use of OIG                    accountability, communications, teamwork, and
 FEC policies, programs, and operations.
                                                           resources in support of our people and products.                 personal and professional growth.


 Objective A: Deliver timely, high-quality                                                                                  Objective A: Attract and retain well-qualified,
 products and services that promote                                                                                         diverse and motivated employees.
 positive change.                                            Objective A: Maintain a dynamic strategic
                                                             planning process.                                              Strategy:
                                                                                                                            - develop and implement a comprehensive recruiting program
 Strategy:                                                                                                                  that attracts a broad population with the knowledge, skills,
 - establish common OIG standards for communicating          Strategy:                                                      abilities, and expertise necessary to make meaningful
 results;                                                    - periodically review and update the strategic plan to
                                                                                                                            contributions to the OIG;
 - conduct quality assurance programs;                       address changing OIG and FEC priorities; and,
                                                                                                                            - assess employee satisfaction and develop strategies to address
 - solicit appropriate internal and external review and      - identify factors that influence organizational change and
                                                                                                                            employee concerns;
 comment;                                                    develop short and long term plans to address them.
                                                                                                                            - identify reasons for staff departures and develop plans to foster
 - comply with applicable statutory guidelines and                                                                          greater staff retention; and,
 standards;                                                                                                                 - adhere to EEO principles and strive to maintain a diverse work
 - set realistic and appropriate milestones.                                                                                force.

 Objective B: Address priority issues and
 concerns of the Commission, Congress,
                                                             Objective B: Plan and conduct cost-
 and Management.
                                                             effective work that address critical issues                    Objective B: Provide training and developmental
 Strategy:     Perform work that supports;                   and results in positive change.                                opportunities to employees.
 - Federal Election Commission and Congressional
 priorities;                                                 Strategy:                                                      Strategy:
 - National Performance Review objectives;                   - solicit FEC and Congressional input in planning OIG          - assess training needs in relation not only to employee but also
 - Strategic Management Initiative efforts;                  activities;                                                    office needs as well;
                                                             - develop internal planning mechanisms to support FEC          - ensure that Government Auditing Standards in relation to
 Focus OIG attention in the following areas of emphasis:     goals and priorities;                                          training are adhered to; and,
 - managing change;                                          - ensure that priorities of IG are effectively communicated;   - maintain a reporting system to ensure that educational
 - resource allocation in relation to policy objectives;     and,                                                           requirements are met.
 - delivery of client service;                               - identify specific targets for OIG review that are the most
 - causes of fraud and inefficiency; and,                    cost-effective
 - automation and communication.



                                                             Objective C: Identify customer needs and
                                                             provide products and services to meet
 Objective C: Follow-up and evaluate                         them.                                                          Objective C: Assess, recognize, and reward,
 results of OIG products and services to                                                                                    when possible, performance that contributes to
 assess their effectiveness in promoting                     Strategy:                                                      achieving the OIG mission.
 positive change.                                            - establish new customer feed back mechanisms;
                                                             - consider and evaluate customers feedback when
                                                             planning and developing products and services;
                                                                                                                            Strategy:
 Strategy:                                                   - respond to Congressional inquires and request for
                                                                                                                            - develop and articulate expectations for each employee's
 - Identify, as appropriate, lessons learned to improve                                                                     performance, including contributions in meeting the mission &
                                                             briefing and testimony;
 timeliness and quality; and,                                                                                               goals of the OIG; and,
                                                             - promote open exchange of ideas and information through
 - conduct follow-up reviews to determine if intended                                                                       - ensure that rewards, when possible, are given in recognition of
                                                             outreach and through use of e-mail; and,
 results have been achieved.                                                                                                exceptional employee performance.
                                                             - receive, evaluate, and respond, as appropriate, to
                                                             information received through the OIG hotline and other
                                                             sources.


 Objective D: Satisfy customers,                             Objective D: Implement efficient, effective,
 consistent with the independent nature of                                                                                  Objective D: Create and maintain a working
                                                             and consistent resolution and follow-up                        environment that promotes teamwork and
 the OIG.                                                    procedures.                                                    effective communication.
 Strategy:                                                   Strategy:
 - establish professional communication and interaction
                                                             - ensure that IG follow-up procedures are followed and that
                                                                                                                            Strategy:
 with customers to promote the open exchange of ideas;                                                                      - ensure that communications between employees is open; and,
                                                             management is aware of their role in the process; and,
 - incorporate customer feedback, as appropriate; and,                                                                      - provide employees with the tools and incentives they need to
                                                             - establish common OIG standards for terminology, date
 - be open to customer-generated solutions and                                                                              adequately perform their duties.
                                                             maintenance and communications.
 options.


                                                             Objective E: Establish a positive and
                                                             productive working environment.

                                                             Strategy:
                                                             - reengineer or streamline OIG procedures to achieve the
                                                             most effective use of resources; and,
                                                             - ensure that necessary technologies, evolving and
                                                             otherwise, are made available to staff as needed.



 Performance Measures: Determine the
 timeliness and quality of products and                      Performance Measures: An annual audit                          Performance Measures: All employees meet
 services; their effectiveness in promoting                  plan is issued; strategic plan is periodically                 the training requirements; all employees have
 positive change; and, reach agreement                       reviewed; and, necessary technology is                         performance standards; and, all employees meet
 with management on at least 90% of                          provided to staff to enable them to most                       the basic requirements for the position in which
 recommendations within six months of                        efficiently perform their duties.                              they were hired to perform.
 the report issue date.




October 1, 2000 - March 31, 2001                                                                                                                                             Page 32
         CONTACTING THE OFFICE OF INSPECTOR GENERAL

The success of the OIG mission to prevent fraud, waste, and abuse depends
on the cooperation of FEC employees (and the public). There are several
ways to report questionable activity.




        Call us at 202-694-1015 or toll-free 1-800-424-9530. A confidential or
        anonymous message can be left 24 hours a day / 7 days a week.




        Write or visit us - we are located at:	     Federal Election Commission
                                                    Office of Inspector General
                                                    999 E Street, N.W., Suite 940
                                                    Washington, DC 20463

                            Mail is opened by OIG staff members only.




                           You can also contact us by e-mail at: oig@fec.gov.


Individuals may be subject to disciplinary or criminal action for knowingly
making a false complaint or providing false information.




October 1, 2000 - March 31, 2001                                                Page 33
